Case: 17-11211

Document: 00515541230

Page: 1

Date Filed: 08/26/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 17-11211
Summary Calendar

August 26, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Eddie Charles Webb,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:16-CV-94
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Eddie Charles Webb, federal prisoner # 17417-077, pleaded guilty to
unlawful possession of a firearm by a convicted felon, and the district court
sentenced him under the Armed Career Criminal Act (ACCA) to 327 months
of imprisonment based on his three Texas burglary convictions. The district

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Webb v. United States
Petition Appendix

1a

Case: 17-11211

Document: 00515541230

Page: 2

Date Filed: 08/26/2020

No. 17-11211

court denied Webb’s 28 U.S.C. § 2255 motion to vacate, correct, or set aside
his sentence. We granted Webb a certificate of appealability on (1) whether
his § 2255 motion was timely filed, and (2) if so, whether Webb should
receive relief on his claim that he no longer qualifies for sentencing under the
ACCA.
Webb argues that his § 2255 motion was timely because he asserted
the right first recognized in Johnson v. United States, 135 S. Ct. 2551 (2015),
and filed the motion within one year of that decision. Webb further contends
that he is entitled to collateral relief under Johnson because Texas burglary
does not qualify as the generic offense of burglary for purposes of sentencing
under the ACCA. The Government has filed an opposed motion for
summary affirmance in light of United States v. Herrold, 941 F.3d 173, 175,
177, 182 (5th Cir. 2019) (en banc), and, in the alternative, an extension of time
to file a brief.
In the appeal of a denial of a § 2255 motion, we review the district
court’s factual findings for clear error and its legal conclusions de novo.
United States v. Cavitt, 550 F.3d 430, 435 (5th Cir. 2008). In Herrold,
941 F.3d at 175, 177, 182, we concluded that, although the Texas burglary
statute consists of multiple subsections, the statute creates one indivisible
offense that constitutes generic burglary for purposes of sentencing under the
ACCA. Thus, Texas burglary is still a valid ACCA predicate violent felony
offense even after Johnson because it is generic burglary, and Johnson does
not implicate Webb’s ACCA predicate burglary convictions. See id. We
therefore need not address whether Webb’s § 2255 motion was timely filed.
See Davis v. Scott, 157 F.3d 1003, 1005 (5th Cir. 1998).
The judgment of the district court is AFFIRMED.

The

Government’s motions for summary affirmance and, in the alternative, an
extension of time to file a brief are DENIED.

Webb v. United States
Petition Appendix

2

2a

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 17-11211
UNITED STATES OF AMERICA,
Plaintiff–Appellee,
v.
EDDIE CHARLES WEBB,
Defendant–Appellant.
Appeal from the United States District Court
for the Northern District of Texas
O R D E R:
Eddie Charles Webb, federal prisoner # 17417-077, was convicted of
possession of firearms after a felony conviction, in violation of 18 U.S.C.
§ 922(g)(1), and was sentenced under the Armed Career Criminal Act (ACCA),
18 U.S.C. § 924(e), to 327 months of imprisonment. Webb now moves for a
certificate of appealability (COA), arguing that the district court erred in
dismissing on the merits, and alternatively as time-barred, his 28 U.S.C.
§ 2255 motion challenging his ACCA sentence enhancement. Relying on
Johnson v. United States, 135 S. Ct. 2551 (2015), Webb contends that his
motion was timely and that he no longer qualifies for ACCA sentencing as a
result of changes in the law concerning ACCA predicate offenses, particularly
the classification of Texas burglary offenses.

Webb v. United States
Petition Appendix

3a

No. 17-11211
To obtain a COA, a prisoner must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529
U.S. 473, 484 (2000). If a district court has rejected the claims on their merits,
the movant “must demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Slack, 529
U.S. at 484. For claims dismissed on procedural grounds, a COA movant must
show “that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural
ruling.” Id. Because Webb has made the required showing, a COA is
GRANTED on the following issues: (1) whether his § 2255 motion was timely
filed, and (2) if so, whether he should receive relief on his claim that he no
longer qualifies for sentencing under the ACCA.
The clerk is DIRECTED to send the parties a briefing schedule.

2
Webb v. United States
Petition Appendix

4a

Case 5:16-cv-00094-C Document 14 Filed 08/09/17

Page 1 of 3 PageID 58

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION

EDDIE CHARLES WEBB,
Movant,
v.

UNITED ST ATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
5: 16-CV-094-C
CRIMINAL NO.
5:01-CR-074-01-C

ORDER
On May 20, 2016, Eddie Charles Webb ("Movant") filed his Motion Under 28 U.S.C.
§ 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody. Following the

appointment of the Federal Public Defender, Movant filed his Amended Motion Under 28 U.S.C.
§ 2255 on September 14, 2016. The United States of America ("Respondent") filed its Response
on May 20, 2017. 1 Movant filed his Reply on June 12, 2017.
Webb pleaded guilty to being a convicted felon in possession of a firearm, in violation of
18 U.S.C. § 922(g)(l). On February 7, 2002, he was sentenced under the Armed Career Criminal
Act of 1984 (ACCA) to a 327-month term of imprisonment. 18 U.S.C. § 924(e). Webb did not
appeal his conviction or sentence. This is his first§ 2255 motion.
Webb pleads that he is entitled to relief under the Supreme Court's decision in Johnson v.
United States, which held that the "residual clause" of the ACCA is unconstitutionally vague.

135 S. Ct. 2551 (2015); 18 U.S.C. § 924(e)(2)(B)(ii). Specifically, he argues that his prior
convictions for burglary no longer qualify as violent felonies under the ACCA. In Welch v.

1

The United States's Response is timely pursuant to the Court's Order of April 20, 2017.

17-11211.62
Webb v. United States
Petition Appendix

5a

Case 5:16-cv-00094-C Document 14 Filed 08/09/17

Page 2 of 3 PageID 59

United States, 136 S.Ct. 1257 (2016), the Supreme Court held that its decision in Johnson
announced a new substantive rule of constitutional law that applies retroactively in a collateral
challenge to an ACCA residual clause sentence. Webb was sentenced under the ACCA. But the
Court is of the opinion that Webb has failed to show that he was sentenced under the residual
clause of the ACCA. To the contrary, it would appear that Webb's burglary convictions clearly
fall under the enumerated clause of § 924(e)(2)(B)(ii) and there is nothing in the record
indicating that these convictions were ever considered under the statute's residual clause. Webb
therefore continues to qualify for an enhanced ACCA sentence even following the Supreme
Court's holding concerning the residual clause inJohnson. 2
The Court is of the opinion that-because Johnson does not directly apply-Webb's
motion is otherwise time-barred because it was filed more than one year after the Court's
judgment became final. 28 U.S.C. § 2255(f)(l). As for any argument seeking relief under

Mathis v. United States, 136 S. Ct. 2243 (2016), the Court notes that holding has not been made
retroactive on collateral review and therefore does not provide any basis to raise a collateral
attack on Webb's 2002 conviction. See United States v. Morgan, 845 F.3d 664, 666-68 (5th Cir.
2017); In re Lott, 838 F.3d 522, 523 (5th Cir. 2016) (per curiam).
The Court has carefully considered Webb's motion, the United States' response, Webb's
reply, and the relevant records, and is of the opinion that Webb's Motion Under 28 U.S.C.

§ 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody should be

2

In his Reply, Webb concedes that his arguments regarding the burglary offenses are
presently foreclosed by Fifth Circuit precedent. See United States v. Uribe, 838 F.3d 667 (5th
Cir. 2016).
2

17-11211.63
Webb v. United States
Petition Appendix

6a

Case 5:16-cv-00094-C Document 14 Filed 08/09/17

Page 3 of 3 PageID 60

DENIED and DISMISSED with prejudice for the reasons stated herein as well as each of the
reasons stated in the United States' thorough and well-drafted response.
All relief not expressly granted is DENIED, and any pending motions are DENIED.
Pursuant to Rule 22 of the Federal Rules of Appellate Procedure and 28 U.S.C. § 2253(c),
this Court finds that a certificate of appealability should be denied. For the reasons set forth
herein, Movant has failed to show that a reasonable jurist would find (1) this Court' s "assessment
of the constitutional claims debatable or wrong" or (2) "it debatable whether the petition states a
valid claim of the denial of a constitutional right" and "debatable whether [this Court] was
correct in its procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484 (2000).
SO ORDERED. ,
Dated this

L

..

day of August, 2017.

3

17-11211.64
Webb v. United States
Petition Appendix

7a

Case 5:16-cv-00094-C Document 15 Filed 08/09/17

Page 1 of 1 PageID 61

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
LUBBOCK DIVISION

EDDIE CHARLES WEBB,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
5: 16-CV-094-C
CRIMINAL NO.
5:01-CR-074-01-C

JUDGMENT
For the reasons stated in the Court's Order of even date,
IT IS ORDERED, ADWDGED, AND DECREED that the above-styled and-numbered
Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal
Custody is DENIED and DISMISSED with prejudice.
Dated August

_L, 2017.

17-11211.65
Webb v. United States
Petition Appendix

8a

